Nos. 20-543 and 20-544

In the Supreme Court of the United States
JANET L. YELLEN, SECRETARY OF THE TREASURY,
PETITIONER

v.
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.
ALASKA NATIVE VILLAGE CORPORATION
ASSOCIATION, INC., ET AL., PETITIONERS
v.
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

JOINT APPENDIX
ELIZABETH B. PRELOGAR
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel of Record
for Federal Petitioner

RIYAZ AMIR KANJI
Kanji & Kantzen, PLLC
303 Detroit Street
Suite 400
Ann Arbor, MI 48104
rkanji@kanjikatzen.com
(734) 769-5400
NICOLE E. DUCHENEAUX
Big Fire Law & Policy Group
LLP
1404 Fort Crook South
Bellevue, NE 68005
nducheneaux@bigfirelaw.com
(406) 493-4693

PETITIONS FOR WRITS OF CERTIORARI FILED:
OCT. 21, 2020 AND OCT. 23, 2020
CERTIORARI GRANTED: JAN. 8, 2021

Additional Counsel Listed On Inside Cover

PAUL D. CLEMENT
Kirkland & Ellis LLP
1301 Pennsylvania Ave., N.W.
Washington, D.C. 20004
paul.clement@kirkland.com
(202) 389-5000

Counsel of Record
for ANC Petitioners

JEFFREY SCOTT RASMUSSEN
Patterson Earnhart Real Bird &
Wilson LLP
357 S. McCaslin Blvd.
Suite 200
Louisville, CO 80027
jrasmussen@nativelawgroup.com
(303) 926-5292

Counsels of Record
for Respondents

TABLE OF CONTENTS

Page
Court of appeals docket entries (20-5204) ............................ 1
Court of appeals docket entries (20-5205) ............................. 14
Court of appeals docket entries (20-5209) .......................... 16
District court docket entries (1:20-cv-01002-APM) ............. 18
District court docket entries (1:20-cv-01059-APM) ............. 39
District court docket entries (1:20-cv-01070-APM) ............. 42
Memorandum from Assistant Solicitor of Indian
Affairs (May 21, 1976) ..................................................... 44
Letter from Daniel H. Jorjani, Solicitor, Department
of the Interior, to Hon. Brian Callanan, General
Counsel, Department of the Treasury ........................... 49
Action Memorandum for Secretary Mnuchin,
(Apr. 23, 2020) ................................................................. 53
46 Fed. Reg. 27,178 (May 18, 1981) .................................... 55

(I)

UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Docket No. 20-5204
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION; TULALIP TRIBES; HOULTON BAND
OF MALISEET INDIANS; AKIAK NATIVE
COMMUNITY; ASA’CARSARMIUT TRIBE; ALEUT
COMMUNITY OF ST. PAUL ISLAND; PUEBLO OF PICURIS;
ELK VALLEY RANCHERIA, CALIFORNIA; SAN CARLOS
APACHE TRIBE; QUINAULT INDIAN NATION; NAVAJO
NATION; CHEYENNE RIVER SIOUX TRIBE, 20-CV-01059;
OGLALA SIOUX TRIBE, 20-CV-01059; ROSEBUD SIOUX
TRIBE, 20-CV-01059; NONDALTON TRIBAL COUNCIL,
20-CV-01059; ARCTIC VILLAGE COUNCIL, 20-CV-01059;
NATIVE VILLAGE OF VENETIE TRIBAL GOVERNMENT,
20-CV-01059, PLAINTIFFS-APPELLEES
UTE TRIBE OF THE UINTAH AND OURAY INDIAN
RESERVATION, 20-CV-01070, PLAINTIFF-APPELLANT
v.
STEVEN T. MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF U.S. DEPARTMENT OF THE TREASURY,
DEFENDANT-APPELLEE
AHTNA, INC.; ALASKA NATIVE VILLAGE
CORPORATION ASSOCIATION, INC.; ASSOCIATION OF
ANCSA REGIONAL CORPORATION PRESIDENTS/CEO’S,
INC.; CALISTA CORPORATION; KWETHLUK,
INCORPORATED; SEA LION CORPORATION; ST. MARY’S
NATIVE CORPORATION; NAPASKIAK, INCORPORATED;
AKIACHAK, LIMITED, INTERVENORS FOR
DEFENDANT-APPELLEES

(1)

2
DOCKET ENTRIES
DATE

PROCEEDINGS

7/14/20 US CIVIL CASE docketed. [20-5204] [Entered: 07/14/2020 11:45 AM]
7/14/20 NOTICE OF APPEAL [1851545] seeking review of a decision by the U.S. District Court in
1:20-cv-01002-APM filed by Ute Tribe of the
Uintah and Ouray Indian Reservation. Appeal assigned USCA Case Number: 20-5204.
[20-5204] [Entered: 07/14/2020 11:46 AM]
* * * * *
7/14/20 CLERK’S ORDER [1851593] filed consolidating cases 20-5205 (Consolidation started
07/14/2020) with 20-5204. [20-5204, 20-5205]
[Entered: 07/14/2020 02:11 PM]
* * * * *
7/14/20 MOTION [1851631] to expedite case filed by
Akiak Native Community, Aleut Community of
St. Paul Island, Asa’carsarmiut Tribe, Confederated Tribes of the Chehalis Reservation, Elk
Valley Rancheria, California, Houlton Band of
Maliseet Indians, Navajo Nation, Pueblo of Picuris, Quinault Indian Nation, San Carlos
Apache Tribe and Tulalip Tribes in 20-5205
(Service Date:
07/14/2020 by CM/ECF
NDA) Length Certification:
3,940 words.
[20-5205, 20-5204] (Kanji, Riyaz) [Entered:
07/14/2020 04:44 PM]
* * * * *

3
DATE

PROCEEDINGS

7/15/20 CLERK’S ORDER [1851757] filed consolidating case 20-5209 (Consolidation started
07/15/2020) with 20-5204 [20-5204, 20-5205,
20-5209] [Entered: 07/15/2020 12:14 PM]
* * * * *
7/20/20 RESPONSE IN SUPPORT [1852608] to motion to expedite case [1851631-2] filed by Ahtna,
Inc., Akiachak, Limited, Alaska Native Village
Corporation Association, Inc., Association of
ANCSA Regional Corporation Presidents/
CEO’s, Inc., Calista Corporation, Kwethluk,
Incorporated, Napaskiak, Incorporated, Sea
Lion Corporation and St. Mary’s Native Corporation in 20-5205, 20-5204, 20-5209 [Service
Date: 07/20/2020 by Email] Length Certification: 312 Words. [20-5205, 20-5204, 20-5209]
(Clement, Paul) [Entered: 07/20/2020 07:55
PM]
7/21/20 PER CURIAM ORDER [1852762] filed granting motion to expedite case [1851631-2] in
20-5204, 20-5205. Setting briefing schedule:
BRIEFS OF APPELLANTS due 07/31/2020.
APPENDIX due 07/31/2020. BRIEFS OF
AMICI CURIAE SUPPORTING APPELLANTS, IF ANY due 08/05/2020. BRIEF OF
APPELLEE MNUCHIN due 08/18/2020.
JOINT
BRIEF
OF
INTERVENORAPPELLEES due 08/18/2020. BRIEFS OF
AMICI CURIAE SUPPORTING APPELLEES, IF ANY due 08/20/2020.
REPLY

4
DATE

PROCEEDINGS

BRIEFS OF APPELLANTS due 08/26/2020.
(SEE ORDER FOR FURTHER DETAILS
AND SUBMISSION REQUIREMENTS.)
Before Judges: Rogers, Griffith and Pillard.
[20-5204,
20-5205,
20-5209]
[Entered:
07/21/2020 02:11 PM]
* * * * *
7/31/20 APPELLANT BRIEF [1854649] filed by Ute
Tribe of the Uintah and Ouray Indian Reservation in 20-5204, Navajo Nation in 20-5205, Arctic Village Council, Cheyenne River Sioux
Tribe, Native Village of Venetie Tribal Government, Nondalton Tribal Council and Rosebud
Sioux Tribe in 20-5209 [Service Date:
07/31/2020] Length of Brief: 5498. [20-5204,
20-5205, 20-5209] (Wilson, Rollie) [Entered:
07/31/2020 04:57 PM]
* * * * *
7/31/20 APPELLANT BRIEF [1854684] filed by Akiak
Native Community, Aleut Community of St.
Paul Island, Asa’carsarmiut Tribe, Confederated Tribes of the Chehalis Reservation, Elk
Valley Rancheria, California, Houlton Band of
Maliseet Indians, Navajo Nation, Pueblo of Picuris, Quinault Indian Nation, San Carlos
Apache Tribe and Tulalip Tribes in 20-5205
[Service Date: 07/31/2020] Length of Brief:
7418 words.
[20-5204, 20-5205, 20-5209]
(Kanji, Riyaz) [Entered: 07/31/2020 11:47 PM]

5
DATE

PROCEEDINGS

8/3/20

APPENDIX [1854859] filed by Akiak Native
Community, Aleut Community of St. Paul Island, Asa’carsarmiut Tribe, Confederated
Tribes of the Chehalis Reservation, Elk Valley
Rancheria, California, Houlton Band of
Maliseet Indians, Navajo Nation, Pueblo of Picuris, Quinault Indian Nation, San Carlos
Apache Tribe and Tulalip Tribes in 20-5205.
[Volumes:
1] [Service Date:
07/31/2020]
[20-5204, 20-5205, 20-5209] (Kanji, Riyaz) [Entered: 08/03/2020 07:13 PM]

* * * * *
8/11/20 CORRECTED APPELLANT BRIEF f
[1856064] filed by Arctic Village Council, Cheyenne River Sioux Tribe, Native Village of Venetie Tribal Government, Navajo Nation, Nondalton Tribal Council, Rosebud Sioux Tribe and
Ute Tribe of the Uintah and Ouray Indian Reservation in 20-5204, Arctic Village Council,
Cheyenne River Sioux Tribe, Native Village of
Venetie Tribal Government, Nondalton Tribal
Council, Rosebud Sioux Tribe, Ute Tribe of the
Uintah and Ouray Indian Reservation and Navajo Nation in 20-5205, Arctic Village Council,
Cheyenne River Sioux Tribe, Native Village of
Venetie Tribal Government, Nondalton Tribal
Council, Rosebud Sioux Tribe and Navajo Nation and Ute Tribe of the Uintah and Ouray Indian Reservation in 20-5209 [Service Date:
08/11/2020] [20-5204, 20-5205, 20-5209]—

6
DATE

PROCEEDINGS

[MODIFIED EVENT—Edited 08/12/2020 by
LMC]
(Rasmussen,
Jeffrey)
[Entered:
08/11/2020 01:47 PM]
* * * * *
8/18/20 APPELLEE BRIEF [1857150] filed by Steven
T. Mnuchin in 20-5204, 20-5205, 20-5209 [Service Date:
08/18/2020] Length of Brief:
12,637 Words.
[20-5204, 20-5205, 20-5209]
(Jed, Adam) [Entered: 08/18/2020 06:11 PM]
8/18/20 APPELLEE BRIEF [1857152] filed by Alaska
Native Village Corporation Association, Inc.,
Association of ANCSA Regional Corporation
Presidents/CEO’s, Inc., Ahtna, Inc., Akiachak,
Limited, Calista Corporation, Kwethluk, Incorporated, Napaskiak, Incorporated, Sea Lion
Corporation and St. Mary’s Native Corporation
in 20-5204, 20-5205, 20-5209 [Service Date:
08/18/2020] Length of Brief:
9088 words.
[20-5204, 20-5205, 20-5209] (Clement, Paul)
[Entered: 08/18/2020 06:31 PM]
* * * * *
8/26/20 APPELLANT REPLY BRIEF [1858436] filed
by Ute Tribe of the Uintah and Ouray Indian
Reservation in 20-5204, Navajo Nation in
20-5205, Cheyenne River Sioux Tribe, Rosebud
Sioux Tribe, Native Village of Venetie Tribal
Government, Nondalton Tribal Council and
Arctic Village Council in 20-5209 [Service Date:
08/26/2020] Length of Brief:
2933 words.

7
DATE

PROCEEDINGS

[20-5204, 20-5205, 20-5209] (Rasmussen, Jeffrey) [Entered: 08/26/2020 03:00 PM]
* * * * *
8/26/20 APPELLANT REPLY BRIEF [1858514] filed
by Akiak Native Community, Aleut Community
of St. Paul Island, Asa’carsarmiut Tribe, Confederated Tribes of the Chehalis Reservation,
Elk Valley Rancheria, California, Houlton
Band of Maliseet Indians, Navajo Nation,
Pueblo of Picuris, Quinault Indian Nation, San
Carlos Apache Tribe and Tulalip Tribes in
20-5205 [Service Date: 08/26/2020] Length of
Brief:
3567.
[20-5204, 20-5205, 20-5209]
(Kanji, Riyaz) [Entered:
08/26/2020 11:57
PM]
* * * * *
9/11/20 ORAL ARGUMENT HELD before Judges
Henderson, Millett and Katsas.
[20-5204,
20-5205, 20-5209] [Entered: 09/13/2020 10:24
AM]
9/14/20 PER CURIAM ORDER [1861346] filed, on the
court’s own motion, that the Secretary of the
Treasury be enjoined from disbursing or otherwise paying Title V funds to any Alaska Native
regional or village corporations pending resolution of these consolidated appeals. Before
Judges: Henderson, Millett and Katsas. [205204, 20-5205, 20-5209] [Entered: 09/14/2020
04:24 PM]

8
DATE

PROCEEDINGS

* * * * *
9/25/20 PER CURIAM JUDGMENT [1863445] filed
that the judgment of the District Court appealed from in these causes granting summary
judgment to the government and the intervenors and denying summary judgment to the
plaintiff tribes is hereby reversed for the reasons in the accompanying opinion. Before
Judges: Henderson, Millett and Katsas.
[20-5204,
20-5205,
20-5209]
[Entered:
09/25/2020 02:02 PM]
9/25/20 OPINION [1863446] filed (Pages: 24) for the
Court by Judge Katsas, CONCURRING
OPINION (Pages: 2) by Judge Henderson
[20-5204,
20-5205,
20-5209]
[Entered:
09/25/2020 02:05 PM]
* * * * *
9/29/20 MOTION [1864008] Emergency Motion to Suspend Statutory Lapse of Appropriation and Extend Budget Authority filed by Akiak Native
Community, Aleut Community of St. Paul Island, Asa’carsarmiut Tribe, Confederated
Tribes of the Chehalis Reservation, Elk Valley
Rancheria, California, Houlton Band of
Maliseet Indians, Navajo Nation, Pueblo of Picuris, Quinault Indian Nation, San Carlos
Apache Tribe and Tulalip Tribes in 20-5204,
20-5205, 20-5209 (Service Date: 09/29/2020 by
CM/ECF NDA) Length Certification: 2993.

9
DATE

PROCEEDINGS

[20-5204, 20-5205, 20-5209] (Kanji, Riyaz) [Entered: 09/29/2020 05:39 PM]
9/29/20 PER CURIAM ORDER [1864017] filed upon
consideration of the emergency motion of the
Confederated Tribes of the Chehalis Reservation, et al., to suspend statutory lapse of appropriation and extend budget authority, it is ORDERED, on the court’s own motion, that the
government and the intervenor-appellees each
file a response by 12:00 noon on Wednesday,
September 30, 2020. Any reply is due by 3:00
p.m. on September 30, 2020. Before Judges:
Henderson, Millett and Katsas.
[20-5204,
20-5205, 20-5209] [Entered: 09/29/2020 06:45
PM]
9/30/20 RESPONSE IN OPPOSITION [1864090] to
motion for other relief [1864008-2] filed by Steven T. Mnuchin in 20-5204, 20-5205, 20-5209
[Service Date: 09/30/2020 by CM/ECF NDA]
Length Certification: 1386 words. [20-5204,
20-5205, 20-5209] (Jed, Adam) [Entered:
09/30/2020 11:57 AM]
9/30/20 RESPONSE [1864093] to order [1864017-2]
filed by Alaska Native Village Corporation Association, Inc., Association of ANCSA Regional
Corporation Presidents/CEO’s, Inc., Ahtna,
Inc., Akiachak, Limited, Calista Corporation,
Kwethluk, Incorporated, Napaskiak, Incorporated, Sea Lion Corporation and St. Mary’s Native Corporation in 20-5204, 20-5205, 20-5209
(Service Date: 09/30/2020 by CM/ECF NDA)

10
DATE

PROCEEDINGS

Length Certification: 2,003 words. [20-5204,
20-5205, 20-5209] (Clement, Paul) [Entered:
09/30/2020 11:59 AM]
9/30/20 REPLY [1864150] filed by Ute Tribe of the Uintah and Ouray Indian Reservation in 20-5204 to
response [1864090-2] [Service Date: 09/30/2020
by CM/ECF NDA] Length Certification: 307.
[20-5204, 20-5209, 20-5205] (Rasmussen, Jeffrey) [Entered: 09/30/2020 02:44 PM]
9/30/20 REPLY [1864151] filed by Akiak Native Community, Aleut Community of St. Paul Island,
Asa’carsarmiut Tribe, Confederated Tribes of
the Chehalis Reservation, Elk Valley Rancheria, California, Houlton Band of Maliseet Indians, Navajo Nation, Pueblo of Picuris, Quinault
Indian Nation, San Carlos Apache Tribe and
Tulalip Tribes in 20-5204, 20-5205, 20-5209 to
response [1864090-2], [1864093-2] [Service
Date: 09/30/2020 by CM/ECF NDA] Length
Certification:
590.
[20-5204, 20-5205,
20-5209] (Kanji, Riyaz) [Entered: 09/30/2020
02:53 PM]
9/30/20 PER CURIAM ORDER [1864207] filed ORDERED that to ensure an opportunity for orderly review of this Court’s September 25, 2020
decision, as well as the government’s ability to
disburse the disputed funds upon completion of
the litigation, any expiration of the appropriation for Tribal governments set forth in 42
U.S.C. 801(a)(2)(B) is hereby suspended. It is

11
DATE

PROCEEDINGS

FURTHER ORDERED that this order will expire at 5:00 p.m. on October 30, 2020, unless
the federal government or the intervenorappellees has by then filed either a petition for
rehearing en banc or for a writ of certiorari
seeking review of this Court’s decision, in which
case this order will remain effective until seven
days after final action by this Court or the Supreme Court. Before Judges: Henderson,
Millett and Katsas. (*Circuit Judge Henderson would deny the motion) [20-5204, 20-5205,
20-5209] [Entered: 09/30/2020 05:31 PM]
* * * * *
12/7/20 MOTION [1874743] to issue mandate, and to
promptly comply with the mandate filed by Ute
Tribe of the Uintah and Ouray Indian Reservation (Service Date: 12/07/2020 by CM/ECF
NDA) Length Certification:
1113 words.
[20-5204]—[Edited 12/21/2020 by DJR—
MODIFIED EVENT] (Rasmussen, Jeffrey)
[Entered: 12/07/2020 07:08 PM]
12/14/20 RESPONSE IN OPPOSITION [1875729] to
motion to issue mandate [1874743-2] filed by
Steven T. Mnuchin in 20-5204, 20-5209, 20-5205
[Service Date: 12/14/2020 by CM/ECF NDA]
Length Certification: 1220 words. [20-5204,
20-5209, 20-5205] (Jed, Adam) [Entered:
12/14/2020 09:36 PM]
12/16/20 REPLY [1876059] filed by Ute Tribe of the Uintah and Ouray Indian Reservation in 20-5204,

12
DATE

PROCEEDINGS

20-5205, 20-5209 to response [1875729-2] [Service Date: 12/16/2020 by CM/ECF NDA]
Length Certification: 1315. [20-5204, 20-5205,
20-5209] (Rasmussen, Jeffrey) [Entered:
12/16/2020 04:43 PM]
12/17/20 RESPONSE IN OPPOSITION [1876226] to
motion to issue mandate [1874743-2] filed by
Ahtna, Inc., Akiachak, Limited, Alaska Native
Village Corporation Association, Inc., Association of ANCSA Regional Corporation Presidents/
CEO’s, Inc., Calista Corporation, Kwethluk,
Incorporated, Napaskiak, Incorporated, Sea
Lion Corporation and St. Mary’s Native Corporation in 20-5205, 20-5204, 20-5209 [Service
Date: 12/17/2020 by CM/ECF NDA] Length
Certification: 935 Words. [20-5205, 20-5204,
20-5209]
(Clement,
Paul)
[Entered:
12/17/2020 04:32 PM]
12/18/20 REPLY [1876311] filed by Ute Tribe of the
Uintah and Ouray Indian Reservation in
20-5204 to response [1876226-2] [Service Date:
12/18/2020 by CM/ECF NDA] Length Certification: 187. [20-5204, 20-5205, 20-5209] (Rasmussen, Jeffrey) [Entered: 12/18/2020 11:31
AM]
12/21/20 PER CURIAM ORDER [1876648] filed that
the motion be granted in part and denied in
part. The motion to issue the mandate is
hereby granted [1874743-2], and the Clerk is directed to issue the mandate forthwith. The
motion for an order requiring the United States

13
DATE

PROCEEDINGS

to promptly comply with the mandate is hereby
denied [1874743-3]. Before Judges: Henderson, Millett and Katsas. [20-5204, 20-5205,
20-5209] [Entered: 12/21/2020 04:06 PM]
12/21/20 MANDATE ISSUED to Clerk, U.S. District
Court. [20-5204, 20-5205, 20-5209] [Entered:
12/21/2020 04:07 PM]
* * * * *

14
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Docket No. 20-5205
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION; TULALIP TRIBES; HOULTON BAND OF
MALISEET INDIANS; AKIAK NATIVE COMMUNITY;
ASA’CARSARMIUT TRIBE; ALEUT COMMUNITY OF ST.
PAUL ISLAND; PUEBLO OF PICURIS; ELK VALLEY
RANCHERIA, CALIFORNIA; SAN CARLOS APACHE TRIBE;
QUINAULT INDIAN NATION; NAVAJO NATION,
PLAINTIFFS-APPELLANTS
CHEYENNE RIVER SIOUX TRIBE, 20-CV-01059;
OGLALA SIOUX TRIBE, 20-CV-01059; ROSEBUD SIOUX
TRIBE, 20-CV-01059; NONDALTON TRIBAL COUNCIL,
20-CV-01059; ARCTIC VILLAGE COUNCIL, 20-CV-01059;
NATIVE VILLAGE OF VENETIE TRIBAL GOVERNMENT,
20-CV-01059; UTE TRIBE OF THE UINTAH AND OURAY
INDIAN RESERVATION, 20-CV-01070,
PLAINTIFFS-APPELLEES
v.
STEVEN T. MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF U.S. DEPARTMENT OF THE TREASURY,
DEFENDANT-APPELLEE
AHTNA, INC.; ALASKA NATIVE VILLAGE CORPORATION
ASSOCIATION, INC.; ASSOCIATION OF ANCSA REGIONAL
CORPORATION PRESIDENTS/CEO’S, INC.; CALISTA
CORPORATION; KWETHLUK, INCORPORATED; SEA LION
CORPORATION; ST. MARY’S NATIVE CORPORATION;
NAPASKIAK, INCORPORATED; AKIACHAK, LIMITED,
INTERVENORS FOR DEFENDANT-APPELLEES

15
DOCKET ENTRIES
DATE

PROCEEDINGS

7/14/20 US CIVIL CASE docketed. [20-5205] [Entered: 07/14/2020 02:07 PM]
7/14/20 NOTICE OF APPEAL [1851588] seeking review of a decision by the U.S. District Court in
1:20-cv-01002-APM filed by Akiak Native Community, Aleut Community of St. Paul Island,
Asa’carsarmiut Tribe, Confederated Tribes of
the Chehalis Reservation, Elk Valley Rancheria, California, Houlton Band of Maliseet Indians, Navajo Nation, Pueblo of Picuris, Quinault
Indian Nation, San Carlos Apache Tribe and
Tulalip Tribes. Appeal assigned USCA Case
Number:
20-5205. [20-5205] [Entered:
07/14/2020 02:08 PM]
7/14/20 CLERK’S ORDER [1851593] filed consolidating cases 20-5205 (Consolidation started
07/14/2020) with 20-5204. [20-5204, 20-5205]
[Entered: 07/14/2020 02:11 PM]
* * * * *

16
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Docket No. 20-5209
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION; TULALIP TRIBES; HOULTON BAND OF
MALISEET INDIANS; AKIAK NATIVE COMMUNITY;
ASA’CARSARMIUT TRIBE; ALEUT COMMUNITY OF ST.
PAUL ISLAND; PUEBLO OF PICURIS; ELK VALLEY
RANCHERIA, CALIFORNIA; SAN CARLOS APACHE TRIBE;
QUINAULT INDIAN NATION; NAVAJO NATION; OGLALA
SIOUX TRIBE, 20-CV-01059; UTE TRIBE OF THE UINTAH
AND OURAY INDIAN RESERVATION, 20-CV-01070,
PLAINTIFFS-APPELLEES
CHEYENNE RIVER SIOUX TRIBE, 20-CV-01059; ROSEBUD
SIOUX TRIBE, 20-CV-01059; NONDALTON TRIBAL
COUNCIL, 20-CV-01059; ARCTIC VILLAGE COUNCIL,
20-CV-01059; NATIVE VILLAGE OF VENETIE TRIBAL
GOVERNMENT, 20-CV-01059, PLAINTIFFS-APPELLANTS
v.
STEVEN T. MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF U.S. DEPARTMENT OF THE TREASURY,
DEFENDANT-APPELLEE
AHTNA, INC.; ALASKA NATIVE VILLAGE CORPORATION
ASSOCIATION, INC.; ASSOCIATION OF ANCSA REGIONAL
CORPORATION PRESIDENTS/CEO’S, INC.; CALISTA
CORPORATION; KWETHLUK, INCORPORATED; SEA LION
CORPORATION; ST. MARY’S NATIVE CORPORATION;
NAPASKIAK, INCORPORATED; AKIACHAK, LIMITED,
INTERVENORS FOR DEFENDANT-APPELLEES

17
DOCKET ENTRIES
DATE

PROCEEDINGS

7/15/20 US CIVIL CASE docketed. [20-5209] [Entered: 07/15/2020 12:09 PM]
7/15/20 NOTICE OF APPEAL [1851755] seeking review of a decision by the U.S. District Court in
1:20-cv-01002-APM filed by Arctic Village
Council, Cheyenne River Sioux Tribe, Native
Village of Venetie Tribal Government, Nondalton Tribal Council and Rosebud Sioux Tribe.
Appeal assigned USCA Case Number: 20-5209.
[20-5209] [Entered: 07/15/2020 12:12 PM]
7/15/20 CLERK’S ORDER [1851757] filed consolidating case 20-5209 (Consolidation started
07/15/2020) with 20-5204 [20-5204, 20-5205,
20-5209] [Entered: 07/15/2020 12:14 PM]
* * * * *

18
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
(WASHINGTON, DC)

Docket No. 1:20-cv-01002-APM
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.
v.
MNUCHIN
DOCKET ENTRIES
DATE

4/17/20

DOCKET
NUMBER PROCEEDINGS

1

COMPLAINT against STEVEN
MNUCHIN in his official capacity as Secretary of U.S. Department
of the Treasury (Filing fee $ 400 receipt number BDCDC-7031496)
filed by ALEUT COMMUNITY
OF ST. PAUL ISLAND, CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION,
AKIAK NATIVE COMMUNITY,
HOULTON BAND OF MALISEET INDIANS, TULALIP
TRIBES, ASA CARSARMIUT
TRIBE.
(Attachments:
# 1
Civil Cover Sheet, # 2 Summons)
(Kanji,
Riyaz)
(Entered:
04/17/2020)

19
DATE

DOCKET
NUMBER PROCEEDINGS

* * * * *
4/20/20

3

MOTION for Temporary Restraining Order, MOTION for Preliminary Injunction by AKIAK
NATIVE COMMUNITY, ALEUT COMMUNITY OF ST.
PAUL ISLAND, ASA CARSARMIUT TRIBE, CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION,
HOULTON
BAND
OF
MALISEET INDIANS, TULALIP TRIBES (Attachments: # 1
Declaration Akiak Native Communit, # 2 Declaration Aleut Community of St, # 3 Declaration Asacarsarmiut, # 4 Declaration Chehalis
—Pickernell, # 5 Declaration
HBMI—Sabattis, # 6 Declaration
Tulalip—Gobin, # 7 Text of Proposed Order, # 8 Declaration RAK
Certificate of Counsel, # 9 Declaration RAK 2nd Decl) (Kanji, Riyaz). Added MOTION for Preliminary Injunction on 4/20/2020
(eg). (Entered: 04/20/2020)
* * * * *

4/21/20

7

AMENDED
COMPLAINT
against STEVEN MNUCHIN
filed by TULALIP TRIBES,

20
DATE

DOCKET
NUMBER PROCEEDINGS

CONFEDERATED TRIBES OF
THE CHEHALIS RESERVATION, ALEUT COMMUNITY
OF ST. PAUL ISLAND, HOULTON BAND OF MALISEET INDIANS, AKIAK NATIVE COMMUNITY, ASA CARSARMIUT
TRIBE, PUEBLO OF PICURIS,
ELK VALLEY RANCHERIA,
CALIFORNIA, SAN CARLOS
APACHE TRIBE, QUINAULT
INDIAN NATION, NAVAJO
NATION. (Kanji, Riyaz) (Entered: 04/21/2020)
* * * * *
4/23/20

21

Memorandum in opposition to re 3
MOTION for Temporary Restraining Order MOTION for Preliminary Injunction filed by STEVEN MNUCHIN. (Lynch, Jason) (Entered: 04/23/2020)
* * * * *

4/24/20

30

REPLY to opposition to motion re
3 MOTION for Temporary Restraining Order MOTION for Preliminary Injunction filed by
AKIAK NATIVE COMMUNITY,
ALEUT COMMUNITY OF ST.

21
DATE

DOCKET
NUMBER PROCEEDINGS

PAUL ISLAND, ASA’CARSARMIUT TRIBE, CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION,
ELK VALLEY RANCHERIA,
CALIFORNIA,
HOULTON
BAND OF MALISEET INDIANS, NAVAJO NATION, PUEBLO OF PICURIS, QUINAULT
INDIAN NATION, SAN CARLOS APACHE TRIBE, TULALIP TRIBES. (Attachments: #
1 Declaration) (Kanji, Riyaz) (Entered: 04/24/2020)
* * * * *
4/27/20

35

REPLY to opposition to motion re
3 MOTION for Temporary Restraining Order MOTION for Preliminary Injunction filed by UTE
TRIBE OF THE UINTAH AND
OURAY
RESERVATION.
(Rasmussen, Jeffrey) (Entered:
04/27/2020)

4/27/20

36

MEMORANDUM AND OPINION as to 3 Plaintiffs’ Motion for a
Temporary Restraining Order and
Preliminary Injunction. See attached Memorandum Opinion for
further details. Signed by Judge

22
DATE

DOCKET
NUMBER PROCEEDINGS

Amit P. Mehta on 04/27/2020.
(lcapm2) (Entered: 04/27/2020)
4/27/20

37

ORDER. For the reasons stated
in the 36 Memorandum Opinion,
the court grants in part and denies
in part Plaintiffs’ Motion for a
Temporary Restraining Order and
Preliminary Injunction. See attached Order for further details.
Signed by Judge Amit P. Mehta on
04/27/2020.
(lcapm2) (Entered:
04/27/2020)
* * * * *

4/30/20

43

MOTION to Intervene by
AHTNA, INC. (Attachments: #
1 Exhibit Declaration of Ken
Johns, # 2 Exhibit Proposed Answer to Chehalis Plaintiffs’ Complaint, # 3 Exhibit Proposed Answer to Sioux Plaintiffs’ Complaint,
# 4 Exhibit Proposed Answer to
Ute Indian Tribe Complaint, # 5
Rule 26.1 Certificate, # 6 Text of
Proposed Order) (O’Leary, Michael) (Entered: 04/30/2020)
* * * * *

5/5/20

45

MOTION to Intervene and Memorandum of Points and Authorities in Support by Alaska Native

23
DATE

DOCKET
NUMBER PROCEEDINGS

Village Corporation Association,
Inc., Association of ANCSA Regional Corporation Presidents/
CEO’s, Inc. (Attachments: # 1
Declaration Aaron M. Schutt, # 2
Declaration Anthony Mallott, # 3
Declaration Richard Glenn, # 4
Declaration Shuana Z. Hegna, # 5
Declaration Sherri Buretta, # 6
Declaration Sophie Minich, # 7
Declaration Wayne Westlake, # 8
Declaration Nancy Andrew, # 9
Declaration Alfred Thomas Harris,
# 10 Declaration Clifford Blair, #
11 Declaration Dean Gould, # 12
Declaration Ed Herndon, # 13
Declaration Janine Avner, # 14
Declaration Kenneth A. Hughes
IV, # 15 Declaration Leo Barlow,
# 16 Declaration Melissa M.
Kookesh, # 17 Declaration Michele
Christiansen, # 18 Declaration
Patrick McCarty, # 19 Declaration
Robert D. Mills, # 20 Declaration
Ron Philemonoff, # 21 Declaration
Thomas Kirk, # 22 Declaration
Gail Schubert, # 23 Declaration
Thomas Mack, # 24 Declaration
George Sam, # 25 Exhibit Ex. 25—
Proposed Answer to Chehalis
Complaint, # 26 Exhibit Ex. 26—

24
DATE

DOCKET
NUMBER PROCEEDINGS

Proposed Answer to Cheyenne
River Complaint, # 27 Exhibit Ex.
27—Proposed Answer to Ute
Tribe Complaint, # 28 ANVCA
Rule 26.1 Disclosure, # 29 ARA
Rule 26.1 Disclosure, # 30 Text of
Proposed Order) (Wolff, Daniel)
(Entered: 05/05/2020)
5/5/20

46

MOTION to Intervene by CALISTA CORPORATION, Kwethluk, Incorporated, Sea Lion Corporation, St. Marys Native Corporation, Napaskiak, Incorporated,
Akiachak, Limited (Attachments:
# 1 Exhibit A—Declaration of A.
Guy, # 2 Exhibit B—Declaration
of G. Guy, # 3 Exhibit C—Declaration of N. Andrew, # 4 Exhibit D—
Declaration of M. Naneng, # 5 Exhibit E—Declaration of M. Kaganak, # 6 Exhibit F—Declaration
of J. George, # 7 Exhibit G—
Proposed Answer to Chehalis
Plaintiffs’ Complaint, # 8 Exhibit
H—Proposed Answer to Sioux
Plaintiffs’ Complaint, # 9 Exhibit
I—Proposed Answer to Ute Indian
Tribe Complaint, # 10 Rule 26.1
Certificate, # 11 Text of Proposed
Order) (Naresh, Ragan) (Entered:
05/05/2020)

25
DATE

DOCKET
NUMBER PROCEEDINGS

* * * * *
5/14/20

59

Memorandum in opposition re 46
MOTION to Intervene, 43 MOTION to Intervene, 45 MOTION
to Intervene and Memorandum of
Points and Authorities in Support
filed by UTE TRIBE OF THE
UINTAH AND OURAY INDIAN
RESERVATION. (Rasmussen,
Jeffrey) Modified on docket event/
text 5/15/2020 (eg). (Entered:
05/15/2020)
* * * * *

5/19/20

62

REPLY to opposition to motion re 46
MOTION to Intervene filed by
AKIACHAK, LIMITED, CALISTA
CORPORATION, KWETHLUK,
INCORPORATED, NAPASKIAK,
INCORPORATED, SEA LION
CORPORATION, ST. MARY’S NATIVE CORPORATION. (Clement,
Paul) (Entered: 05/19/2020)
* * * * *

5/19/20

65

REPLY to opposition to motion re
45 MOTION to Intervene and
Memorandum of Points and Authorities in Support filed by
ALASKA NATIVE VILLAGE
CORPORATION ASSOCIATION,

26
DATE

DOCKET
NUMBER PROCEEDINGS

INC.,
ASSOCIATION
OF
ANCSA REGIONAL CORPORATION PRESIDENTS/CEO’S,
INC.. (Wolff, Daniel) (Entered:
05/19/2020)
* * * * *
5/19/20

68

REPLY to opposition to motion re
43 MOTION to Intervene filed by
AHTNA, INC.. (O’Leary, Michael) (Entered: 05/19/2020)
* * * * *

5/20/20

70

ORDER granting the Motions to
Intervene, ECF Nos. 43, 45, and
46. Plaintiff Ute Tribe’s 69 Motion for Leave to File Surreply is
denied as moot. See the attached
Order for further details. Signed
by Judge Amit P. Metha on
05/20/2020.
(lcapm2) (Entered:
05/20/2020)

5/22/20

71

ADMINISTRATIVE RECORD
Index & Certification by STEVEN
MNUCHIN. (Attachments: # 1
Kowalski
AR
Certification)
(Lynch,
Jason)
(Entered:
05/22/2020)
* * * * *

27
DATE

5/29/20

DOCKET
NUMBER PROCEEDINGS

76

Joint MOTION for Summary
Judgment by ARTIC VILLAGE
COUNCIL,
CHEYENNE
RIVER SIOUX TRIBE, NATIVE VILLAGE OF VENETIE TRIBAL GOVERNMENT, NAVAJO NATION,
NONDALTON
TRIBAL
COUNCIL, OGLALA SIOUX
TRIBE, ROSEBUD SIOUX
TRIBE, UTE TRIBE OF THE
UINTAH AND OURAY INDIAN RESERVATION (Attachments: # 1 Text of Proposed Order, # 2 Memorandum in Support,
# 3 Declaration Frazier, # 4 Exhibit Frazier, # 5 Exhibit Frazier,
# 6 Exhibit Frazier, # 7 Exhibit
Frazier, # 8 Exhibit Frazier, # 9
Exhibit Frazier, # 10 Exhibit Frazier, # 11 Exhibit Frazier, # 12
Exhibit Frazier, # 13 Exhibit Frazier, # 14 Declaration Herman,
# 15 Exhibit Herman, # 16 Exhibit
Herman, # 17 Exhibit Herman,
# 18 Exhibit Herman, # 19 Declaration Yatlin, # 20 Declaration
Thumma, # 21 Exhibit Thumma,
# 22 Declaration Alexie, # 23 Exhibit Alexie) (Ducheneaux, Nicole)
(Entered: 05/29/2020)

28
DATE

DOCKET
NUMBER PROCEEDINGS

5/29/20

77

MOTION for Summary Judgment
by AKIAK NATIVE COMMUNITY, ALEUT COMMUNITY
OF
ST.
PAUL
ISLAND,
ASA’CARSARMIUT
TRIBE,
CONFEDERATED TRIBES OF
THE CHEHALIS RESERVATION, ELK VALLEY RANCHERIA, CALIFORNIA, HOULTON
BAND OF MALISEET INDIANS,
NAVAJO
NATION,
PUEBLO
OF
PICURIS,
QUINAULT INDIAN NATION,
SAN CARLOS APACHE TRIBE,
TULALIP TRIBES (Attachments: # 1 Exhibit, # 2 Text of
Proposed Order) (Kanji, Riyaz)
(Entered: 05/29/2020)

5/29/20

78

MOTION for Summary Judgment
by AHTNA, INC., AKIACHAK,
LIMITED, ALASKA NATIVE
VILLAGE CORPORATION ASSOCIATION, INC., ASSOCIATION OF ANCSA REGIONAL
CORPORATION PRESIDENTS/
CEO’S, INC., CALISTA CORPORATION, KWETHLUK, INCORPORATED, NAPASKIAK,
INCORPORATED, SEA LION
CORPORATION, ST. MARY’S

29
DATE

DOCKET
NUMBER PROCEEDINGS

NATIVE CORPORATION (Attachments: # 1 Memorandum in
Support, # 2 Declaration S. Minich
Supp. Decl., # 3 Text of Proposed
Order) (Wolff, Daniel) (Entered:
05/29/2020)
5/29/20

79

MOTION for Summary Judgment
by STEVEN MNUCHIN (Attachments: # 1 Memorandum in Support, # 2 Exhibit 1—1977 Final
Report, # 3 Text of Proposed Order) (Lynch, Jason) (Entered:
05/29/2020)
* * * * *

6/9/20

86

RESPONSE re 76 Joint MOTION
for Summary Judgment, 77 MOTION for Summary Judgment
filed by AHTNA, INC., AKIACHAK, LIMITED, ALASKA NATIVE VILLAGE CORPORATION ASSOCIATION, INC., ASSOCIATION OF ANCSA REGIONAL
CORPORATION
PRESIDENTS/CEO’S,
INC.,
CALISTA
CORPORATION,
KWETHLUK,
INCORPORATED, NAPASKIAK, INCORPORATED, SEA LION CORPORATION, ST. MARY’S NATIVE
CORPORATION.
(Attach-

30
DATE

DOCKET
NUMBER PROCEEDINGS

ments: # 1 Declaration S. Buretta Supp. Decl.) (Wolff, Daniel)
(Entered: 06/09/2020)
6/9/20

87

RESPONSE re 79 MOTION for
Summary Judgment, 78 MOTION
for Summary Judgment, 77 MOTION for Summary Judgment
filed by AKIAK NATIVE COMMUNITY, ALEUT COMMUNITY OF ST. PAUL ISLAND,
ASA’CARSARMIUT
TRIBE,
CONFEDERATED TRIBES OF
THE CHEHALIS RESERVATION, ELK VALLEY RANCHERIA, CALIFORNIA, HOULTON
BAND OF MALISEET INDIANS,
NAVAJO
NATION,
PUEBLO
OF
PICURIS,
QUINAULT INDIAN NATION,
SAN CARLOS APACHE TRIBE,
TULALIP TRIBES. (Kanji, Riyaz) (Entered: 06/09/2020)

6/9/20

88

RESPONSE re 76 Joint MOTION
for Summary Judgment, 77 MOTION for Summary Judgment
filed by STEVEN MNUCHIN.
(Lynch,
Jason)
(Entered:
06/09/2020)

31
DATE

DOCKET
NUMBER PROCEEDINGS

6/9/20

89

RESPONSE re 79 MOTION
for Summary Judgment, 78 MOTION for Summary Judgment, 76
Joint MOTION for Summary
Judgment Response/Reply in Support of Joint Motion for Summary
Judgment filed by ARTIC
VILLAGE COUNCIL, CHEYENNE RIVER SIOUX TRIBE,
NATIVE VILLAGE OF VENETIE TRIBAL GOVERNMENT, NAVAJO NATION,
NONDALTON TRIBAL COUNCIL, OGLALA SIOUX TRIBE,
ROSEBUD SIOUX TRIBE, UTE
TRIBE OF THE UINTAH AND
OURAY INDIAN RESERVATION. (Furlong, Wesley) (Entered: 06/09/2020)

6/10/20

90

JOINT APPENDIX by AKIAK
NATIVE COMMUNITY, ALEUT COMMUNITY OF ST.
PAUL ISLAND, ASA’CARSARMIUT TRIBE, CONFEDERATED TRIBES OF THE CHEHALIS RESERVATION, ELK
VALLEY RANCHERIA, CALIFORNIA, HOULTON BAND OF
MALISEET INDIANS, NAVAJO NATION, PUEBLO OF
PICURIS, QUINAULT INDIAN

32
DATE

DOCKET
NUMBER PROCEEDINGS

NATION,
SAN
CARLOS
APACHE TRIBE, TULALIP
TRIBES. (Attachments: # 1
Appendix) (Kanji, Riyaz) (Entered: 06/10/2020)
* * * * *
6/17/20

93

Second
AMENDED
COMPLAINT
against
STEVEN
MNUCHIN filed by PUEBLO OF
PICURIS,
SAN
CARLOS
APACHE TRIBE, TULALIP
TRIBES,
CONFEDERATED
TRIBES OF THE CHEHALIS
RESERVATION, NAVAJO NATION, ELK VALLEY RANCHERIA, CALIFORNIA, ALEUT
COMMUNITY OF ST. PAUL ISLAND, HOULTON BAND OF
MALISEET INDIANS, AKIAK
NATIVE
COMMUNITY,
QUINAULT INDIAN NATION,
ASA’CARSARMIUT
TRIBE.
(eg) (Entered: 06/17/2020)
* * * * *

6/25/20

96

Second
AMENDED
COMPLAINT
against
STEVEN
MNUCHIN filed by ARTIC VILLAGE COUNCIL, OGLALA

33
DATE

DOCKET
NUMBER PROCEEDINGS

SIOUX TRIBE, NATIVE VILLAGE OF VENETIE TRIBAL
GOVERNMENT, NONDALTON
TRIBAL COUNCIL, ROSEBUD
SIOUX TRIBE, CHEYENNE
RIVER SIOUX TRIBE. (eg)
(Entered: 06/26/2020)
6/26/20

97

MEMORANDUM
OPINION
granting the Secretary’s and
Defendant-Intervenors’ Motions
for Summary Judgment, ECF
Nos. 79 and 78, and denying Plaintiffs’ Motions for Summary Judgment, ECF Nos. 76 and 77. See
the attached Memorandum Opinion for further details. Signed by
Judge Amit P. Mehta on 06/26/2020.
(lcapm2) (Entered: 06/26/2020)

6/26/20

98

ORDER. For the reasons set forth
in the 97 Memorandum Opinion,
the court grants 79 the Secretary’s
and 78 Defendant-Intervenors’
Motions for Summary Judgment,
and enters judgment in favor of
Defendants in each of the consolidated cases. The preliminary injunction entered on April 27, 2020,
ECF No. 37, is hereby dissolved.
See the attached Order for further
details. Signed by Judge Amit P.

34
DATE

DOCKET
NUMBER PROCEEDINGS

Mehta on 06/26/2020.
(Entered: 06/26/2020)
6/29/20

99

(lcapm2)

MOTION for Leave to File Injunction Pending Appeal by
AKIAK NATIVE COMMUNITY,
ALEUT COMMUNITY OF ST.
PAUL ISLAND, ASA’CARSARMIUT TRIBE, CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION,
ELK VALLEY RANCHERIA,
CALIFORNIA,
HOULTON
BAND OF MALISEET INDIANS,
NAVAJO
NATION,
PUEBLO
OF
PICURIS,
QUINAULT INDIAN NATION,
SAN CARLOS APACHE TRIBE,
TULALIP TRIBES (Attachments: # 1 Text of Proposed Order) (Kanji, Riyaz) (Entered:
06/29/2020)
* * * * *

7/1/20

100

MOTION for Joinder by UTE
TRIBE OF THE UINTAH AND
OURAY INDIAN RESERVATION re 99 MOTION for Leave to
File Injunction Pending Appeal
(Rasmussen, Jeffrey) Modified
docket event/text on 7/2/2020 (eg).
(Entered: 07/01/2020)

35
DATE

DOCKET
NUMBER PROCEEDINGS

* * * * *
7/1/20

102

RESPONSE re 99 MOTION for
Leave to File Injunction Pending
Appeal filed by AKIACHAK,
LIMITED, CALISTA CORPORATION, KWETHLUK, INCORPORATED, NAPASKIAK,
INCORPORATED, SEA LION
CORPORATION, ST. MARY’S
NATIVE
CORPORATION.
(Clement,
Paul)
(Entered:
07/01/2020)

7/1/20

103

RESPONSE re 99 MOTION for
Leave to File Injunction Pending
Appeal filed by STEVEN
MNUCHIN. (Lynch, Jason) (Entered: 07/01/2020)

7/1/20

104

RESPONSE re 99 MOTION for
Leave to File Injunction Pending
Appeal filed by ALASKA NATIVE VILLAGE CORPORATION ASSOCIATION, INC.,
ASSOCIATION OF ANCSA
REGIONAL
CORPORATION
PRESIDENTS/CEO’S,
INC..
(Wolff,
Daniel)
(Entered:
07/01/2020)

7/1/20

105

RESPONSE re 99 MOTION for
Leave to File Injunction Pending
Appeal filed by AHTNA, INC..

36
DATE

DOCKET
NUMBER PROCEEDINGS

(Attachments: # 1 Exhibit Declaration of Ken Johns) (O’Leary, Michael) (Entered: 07/01/2020)
7/3/20

106

RESPONSE re 99 MOTION for
Leave to File Injunction Pending
Appeal filed by AKIAK NATIVE
COMMUNITY, ALEUT COMMUNITY OF ST. PAUL ISLAND,
ASA’CARSARMIUT
TRIBE,
CONFEDERATED
TRIBES OF THE CHEHALIS
RESERVATION, ELK VALLEY
RANCHERIA, CALIFORNIA,
HOULTON
BAND
OF
MALISEET INDIANS, NAVAJO NATION, PUEBLO OF
PICURIS, QUINAULT INDIAN
NATION,
SAN
CARLOS
APACHE TRIBE, TULALIP
TRIBES.
(Kanji, Riyaz) (Entered: 07/03/2020)

7/7/20

107

MEMORANDUM
OPINION
AND ORDER granting 99 Confederated Tribes Plaintiffs’ Motion
for Injunction Pending Appeal.
The court’s Order of June 26, 2020,
ECF No. 98 , is hereby stayed until
the earlier of September 15, 2020,
or resolution of this matter by a
three-judge panel of the D.C. Cir-

37
DATE

DOCKET
NUMBER PROCEEDINGS

cuit, so long as Plaintiffs file a notice of appeal and seek expedited
review by July 14, 2020. See the
attached Memorandum Opinion
for further details. Signed by
Judge Amit P. Mehta on
07/07/2020. (lcapm2) Modified on
7/7/2020 (lcapm2).
(Entered:
07/07/2020)
* * * * *
7/13/20

111

NOTICE OF APPEAL TO DC
CIRCUIT COURT as to 98 Order,
97 Memorandum & Opinion, by
UTE TRIBE OF THE UINTAH
AND OURAY INDIAN RESERVATION. Filing fee $ 505, receipt
number ADCDC-7333262. Fee
Status: Fee Paid. Parties have
been notified. (Rasmussen, Jeffrey) (Entered: 07/13/2020)
* * * * *

7/14/20

113

NOTICE OF APPEAL TO DC
CIRCUIT COURT as to 97 Memorandum & Opinion, by AKIAK
NATIVE COMMUNITY, ALEUT COMMUNITY OF ST.
PAUL ISLAND, ASA’CARSARMIUT TRIBE, CONFEDERATED TRIBES OF THE

38
DATE

DOCKET
NUMBER PROCEEDINGS

CHEHALIS RESERVATION,
ELK VALLEY RANCHERIA,
CALIFORNIA,
HOULTON
BAND OF MALISEET INDIANS,
NAVAJO
NATION,
PUEBLO
OF
PICURIS,
QUINAULT INDIAN NATION,
SAN CARLOS APACHE TRIBE,
TULALIP TRIBES. Filing fee
$505, receipt number ADCDC7336116. Fee Status: Fee Paid.
Parties have been notified.
(Kanji,
Riyaz)
(Entered:
07/14/2020)
* * * * *
7/14/20

116

NOTICE OF APPEAL TO DC
CIRCUIT COURT by CHEYENNE RIVER SIOUX TRIBE.
Filing fee $ 505, receipt number
ADCDC-7338328.
Fee Status:
Fee Paid. Parties have been notified. (Ducheneaux, Nicole) (Entered: 07/14/2020)
* * * * *

39
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
(WASHINGTON, DC)

Docket No. 1:20-cv-01059-APM
CHEYENNE RIVER SIOUX TRIBE, ET AL.
v.
MNUCHIN
DOCKET ENTRIES
DATE

4/22/20

DOCKET
NUMBER PROCEEDINGS

1

COMPLAINT against STEVEN
MNUCHIN (Filing fee $400 receipt number ADCDC-7048357)
filed by CHEYENNE RIVER
SIOUX TRIBE, ROSEBUD
SIOUX
TRIBE,
OGLALA
SIOUX TRIBE. (Attachments:
# 1 Civil Cover Sheet, # 2 Summons) (Ducheneaux, Nicole) (Entered: 04/22/2020)
* * * * *

4/22/20

4

MOTION for Temporary Restraining Order, MOTION for Preliminary Injunction by CHEYENNE RIVER SIOUX TRIBE,
OGLALA SIOUX TRIBE, ROSE-

40
DATE

DOCKET
NUMBER PROCEEDINGS

BUD SIOUX TRIBE (Attachments: # 1 Declaration, # 2 Declaration, # 3 Declaration, # 4 Declaration, # 5 Text of Proposed Order) (Ducheneaux, Nicole) (Entered: 04/22/2020)
* * * * *
4/23/20

MINUTE ORDER. Because this
matter involves common questions
of law and fact as Confederated
Tribes of the Chehalis Reservation
v. Mnuchin, 20-cv-1002, the court
on its own motion consolidates this
case with the Confederated Tribes
action. Fed. R. Civ. P. 42(a). The
same scheduling order entered in
the Confederated Tribes action
shall apply to the motion for injunctive relief pending in this case, and
Defendant may file a consolidated
opposition to both motions for injunctive relief. The Cheyenne
River Sioux Tribe Plaintiffs shall
file their reply by noon on April 24,
2020, on the Confederated Tribes
docket. A hearing on the Cheyenne River Sioux Tribe Plaintiffs’
motion shall be consolidated with
the hearing on the Confederated
Tribes’ motion. Signed by Judge

41
DATE

DOCKET
NUMBER PROCEEDINGS

Amit P. Mehta on 04/23/2020.
(lcapm2) (Entered: 04/23/2020)
* * * * *

42
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
(WASHINGTON, DC)

Docket No. 1:20-cv-01070-APM
UTE TRIBE OF THE UINTAH AND OURAY INDIAN
RESERVATION
v.
MNUCHIN
DOCKET ENTRIES
DATE

4/23/20

DOCKET
NUMBER PROCEEDINGS

1

COMPLAINT against STEVEN
MNUCHIN, Secretary, United
States Department of the Treasury, (Filing fee $ 400 receipt number ADCDC-7053084) filed by
UTE TRIBE OF THE UINTAH
AND OURAY RESERVATION.
(Attachments: # 1 Civil Cover
Sheet, # 2 Notice to Counsel/Party
Notice of Related Cases, # 3 Summons Stephen Mnuchin) (Wilson,
Rollie) (Entered: 04/23/2020)
* * * * *

4/23/20

5

MOTION for Temporary Restraining Order MOTION for Preliminary Injunction by UTE

43
DATE

DOCKET
NUMBER PROCEEDINGS

TRIBE OF THE UINTAH AND
OURAY RESERVATION (Attachments: # 1 Declaration Luke
Duncan) (Wilson, Rollie). Added
MOTION for Preliminary Injunction on 4/24/2020 (eg). (Entered:
04/23/2020)
4/23/20

6

MOTION to Consolidate Cases
and/or Join by UTE TRIBE OF
THE UINTAH AND OURAY
RESERVATION (Wilson, Rollie)
(Entered: 04/23/2020)
* * * * *

4/24/20

MINUTE ORDER granting 6 Motion to Consolidate Cases. All future filings shall be made on the
docket of Confederated Tribes of
the Chehalis Reservation v. Mnuchin, 1:20-cv-1002 (APM). Signed
by Judge Amit P. Mehta on
04/24/2020.
(lcapm2) (Entered:
04/24/2020)
* * * * *

44
UNITED STATES
DEPARTMENT OF THE INTERIOR
OFFICE OF THE SOLICITOR
WASHINGTON, D.C. 20240

MEMORANDUM

[MAY 21, 1976]

To:

Commissioner of Indian Affairs

From:

Assistant Solicitor for Indian Affairs

Subject: Meaning of “Indian tribe” in section 4(b) of
P.L. 93-638 for purposes of application to
Alaska
In your memorandum of April 15, 1976, you have asked
for our opinion on two related questions concerning implementation of Title I of Public Law 93-638, the Indian
Self-Determination Act. You first ask whether a resolution from a Native village council, a village corporation, or a regional corporation will suffice as a request to
contract under the Act. You also ask whether village
and regional corporations are within the scope of the
Act. Since the second question largely embraces the
first, we shall address it at the outset.
Section 4(b) of the Act provides:
“ ‘Indian tribe’ means any Indian tribe, band, nation, or other organized group or community, including any Alaska Native village or regional or
village corporation as defined in or established
pursuant to the Alaska Native Claims Settlement
Act (85 Stat. 688) which is recognized as eligible
for the special programs and services provided by
the United States to Indians because of their status as Indians. . . . ”

45
Since both regional and village corporations find express mention in the definition, customary rules of statutory construction would indicate that they should be
regarded as Indian tribes for purposes of application of
this Act. However, you are troubled by the qualifying
language: “ . . . which is recognized as eligible for
the special programs and services provided by the
United States to Indians because of their status as Indians. . . . ” Indeed, profit-making regional and village corporations have not heretofore been recognized
as eligible for BIA programs and services which are not
provided for by the terms of the Settlement Act. But if
the quoted language operates to disqualify them from
the benefits of P.L. 93-638, then their very mention in
section 4(b) is superfluous. Therefore, we think the
better view is that Congress intended the qualifying language not to apply to regional and village corporations
but to pertain only to that part of the paragraph which
comes before the word “including.” Accordingly, regional and village corporations are within the scope of
the Act.
It follows that regional and village corporations may request to contract for the provision of BIA services under
section 102 of the Act, and that they may also request
grants under section 104. Such requests should be
made by a resolution of a corporation’s board of directors, which is its “governing body” for purposes of application of 25 CFR §§ 271.18 and 272.11. Alaska Native
villages are also considered Indian tribes under the Act,
and their governing bodies may also request to contract
and receive grants. If, as suggested in your memorandum, the Bureau receives competing requests from villages, village corporations, and regional corporations

46
for grants to serve the same clientele, then a determination must be made as to which potential grantee will put
these funds to best use. After all, receipt of such grants
is not a matter of right, but is based on the availability
of appropriations. 25 CFR § 272.17(c). And if there
are competing requests to contract, declination of a request may certainly be justified under the Act on the
ground that competing contractors would not provide
satisfactory services to the Indian beneficiaries.
A related problem, but one not mentioned in your memorandum, is that presented when a contract is let or a
grant is made to a tribal organization to perform services benefitting more than one Indian tribe. The proviso in section 4(c) of the Act requires that the approval
of each tribe benefitted must be obtained prior to the
letting of the contract or the making of the grant. Section 271.18(a) of the regulations in turn provides that
such approval must take the form of an authorizing resolution from each tribal governing body. However, it
has been suggested that where regional corporations or
other organizations representing more than one village
or village corporation propose to contract or receive
grants under the Act, resolutions from each village or
village corporation to be served should not be required.
In support of this suggestion it has been pointed out that
the contracting tribal organization may itself be an Indian tribe (for example, in the case of a regional corporation) and that obtaining resolutions from numerous
villages may be an onerous task.
Nonetheless, the language of the Act is unambiguous.
If a contract or grant benefits more than one village or
village corporation, the approval of each must be obtained. This is not to say, however, that any contract

47
with a regional corporation necessarily benefits every
village or village corporation within its region. We can
conceive of situations where a contract may be let to a
regional tribal organization for purposes other than to
provide direct benefits to certain villages or village corporations within the region. A determination must be
made on a case-by-case basis whether or not an Indian
tribe is actually benefitted within the meaning of the
Act.
Indeed, it is not clear to us what it means for a contract
to “benefit” a village corporation, as opposed to the Native village from which that corporation takes its stockholders. In some cases, the village may no longer have
a governmental identity apart from the corporate structure. In other cases, a contract may be seen as providing services to individual village members without tangibly “benefitting” any particular village government or
village corporation qua corporation. However, it does
seem clear that if a contract is let to a regional tribal
organization for the purpose of providing services in a
given village, some governing body in that village must
approve that contract. Whether it is the village corporation board of directors or the traditional village council which must give such approval—or both—depends on
the circumstances in the given case. On this issue we
understand that you will soon sign a memorandum to the
Aberdeen Area Director which will provide some guidelines for determining when a contract or grant “benefits” an Indian tribe within the meaning of the Act.
We should also point out that the authorizing resolution
required by the regulations is not a statutory requirement. The Act requires only the “approval” of the In-

48
dian tribe benefitted by the contract or grant. The Bureau in turn has implemented the statute by requiring
resolutions from tribal governing bodies, and that is
proper. However, if in a given situation the resolution
procedure proves cumbersome, and a waiver of that procedure is found to be desirable as a matter of policy, we
see no legal obstacle to such a waiver, as long as the tribe
benefitted has had some opportunity to manifest its approval of the contract.
/s/

CHARLES M. SOLLER
CHARLES M. SOLLER

bcc: Secretary’s files
Docket’s files
DIA reading file
CMSoller’s file
DRBarnes’ file
TVollmann’s file
JTalawyma’s file
TVollmann:jt [5/21/76]

49
UNITED STATES
DEPARTMENT OF THE INTERIOR
OFFICE OF THE SOLICITOR

1849 C. Street N.W.
Washington, D.C. 20240

The Honorable Brian Callanan
General Counsel
Department of the Treasury
1500 Pennsylvania Avenue, N.W.
Washington, D.C. 20220
Dear Mr. Callanan:
On April 20, 2020, the Department of the Treasury’s Office of General Counsel requested the views of the Department of the Interior (Department) on whether
Alaska Native Corporations (ANCs) are eligible for funding under Title V of the Coronavirus Aid, Relief, and
Economic Security Act (CARES Act). 1 After a careful
review of the statute and additional materials provided
by my office, I can confirm that it is the Department’s
position that ANCs are eligible for such Funding.
The Indian Self Determination and Education Assistance Act (ISDEAA) 2 definition of “Indian tribe,” incorporated by the CARES Act into Section 601 of the Social
Security Act, explicitly includes “any Alaska Native village or regional or village corporation as defined in or es-

Pub. L. No. 116-136.
Pub. L. No. 93-638, codified as amended at 25 U.S.C. §§ 53015423.
1
2

50
tablished pursuant to the Alaska Native Claims Settlement Act (85 Stat. 688).” 3 As courts have held, it is un-

questionable that such entities are “Indian tribes” for
the specific purpose of ISDEAA eligibility. 4 Thus, it is
not necessary for ANCs to be considered “federallyrecognized Indian tribes” in order to qualify as an “Indian tribe” under the ISDEAA. 5

In light of ANCs’ status as “Indian tribes,” the question
with regard to CARES Act eligibility is how the Act’s
separate definitional requirement of being a “recognized
governing body” of an “Indian tribe” affects ANCs. As
courts have held, the “definition of an Indian tribe changes
depending upon the purpose of the regulation or statutory provision under consideration.” 6 The plain text of
the CARES Act provides the most persuasive argument
in favor of including ANCs as eligible for Section 601
funding. Under Section 601, a “Tribal government,”
which is the “recognized governing body” of an “Indian
tribe,” qualifies for funding. The phrase “recognized
governing body” is not defined. However, the phrase
“Indian tribe” clearly includes ANCs. Under this reading, the specific inclusion of ANCs as “Indian tribes”
25 U.S.C. § 5304(e).
See, e.g., Cook Inlet Native Ass’n v. Bowen, 810 F.2d 1471, 1476
(9th Circ. 1987) (noting that “the plain language of the [ISDEAA]
allows business corporations created under the [Alaska Native
Claims Settlement Act] to be recognized as tribes” for ISDEAA purposes).
5
Central Council of Tlingit and Haida Indian Tribes v. Chief
Branch of Justice Svs., Bureau of Indian Affairs, 26 IBIA 159
(1994); accord U.S. Dep’t of the Interior, Office of the Solicitor,
Memorandum of Charles Soller, May 21, 1976.
6
Dille v. Council of Energy Res. Tribes, 801 F.2d 373, 376 (10th
Cir. 1986).
3
4

51
should override any perceived ambiguity of the more
general, undefined phrase of “recognized governing
body” of an “Indian tribe.” 7 That is, Section 601 demands including the ANC equivalent of a federallyrecognized tribal government (most likely, a Board of
Directors), within the definition of “recognized governing body” solely by virtue of ANC inclusion in the
lSDEAA definition of “Indian tribe.”
A second argument in favor of including ANCs is supported by the significant body or case law concerning instances in which a tribal business, consortium, or agency
constitutes a “tribe” for various statutory or common
law purposes. The fact that Congress did not define
the phrase “recognized governing body” can be read
as an acknowledgment to this body of law and variance
in practice across tribes. Rather than specify the precise contours of a “governing body” in a potentially underinclusive manner, Congress instead laid out the entities themselves that qualify as Indian tribes per the
ISDEAA (federally-recognized Indian tribes and
ANCs), and then included the more general caveat that
Section 601 applicants must be the actual “governing
body” of an ISDEAA “tribe.” The purpose of such phrasing would simply be to ensure that Section 601 applicants are the “tribal” bodies with whom the United
States is entreating on a government-to-government basis (at least for ISDEAA purposes), regardless of formal
title, as opposed to a subsidiary tribal business or government agency.
See, e.g., RadLAX Gateway Hotel v. Amalgamated Bank, 566
U.S. 639, 645 (2012) (the “specific governs the general” in “statutes
. . . in which a general authorization and a more limited, specific
authorization exist side-by-side”).
7

52
Finally, Congress’s ultimate goal in enacting Section
601 was to compensate for funds lost due to the coronavirus pandemic. ANCs act as economic vehicles in
Alaska on behalf of their shareholders, the vast majority
of which are members of federally-recognized Indian
tribes. To the extent that Section 601 funding helped
ensure ANC viability during the pandemic, the ultimate
beneficiaries (at least in part) would be tribal members.
If you or your team have questions or require further
assistance, please feel free to contact Kyle Scherer,
Deputy Solicitor for Indian Affairs, at 202-740-0683 or
me at 202-706-9018.
Sincerely,
/s/

DANIEL H. JORJANI
DANIEL H. JORJANI
Solicitor

53
DEPARTMENT OF THE TREASURY
WASHINGTON, D.C. 20220

[Apr. 23, 2020]
ACTION MEMORANDUM FOR SECRETARY MNUCHIN
SUBJECT:

Treatment of Alaska Native Corporations
under the Title V of the CARES Act

FROM:

Brian Callanan, General Counsel

Under section 601 of the Social Security Act (the “Act”),
as added by Title V of the CARES Act,1 the Secretary
of the Treasury is required to make payment from the
Coronavirus Relief Fund (the “Fund”) in the aggregate
amount of $8 billion to Tribal governments. 2
The term “Tribal government” is defined in section
601(g)(5) of the Act as the recognized governing body of
an Indian Tribe. 3 Section 601(g)(1) of the Act in turn
defines the term “Indian tribe” by reference to the Indian Self-Determination and Education Assistance Act,
which is administered by the Secretary of the Interior
and the Secretary of Health and Human Services. 4 Section 601(c)(7) of the Act requires that the Secretary of
the Treasury consult with the Secretary of the Interior
regarding his determination of the amount to be paid to
Tribal governments from the Fund.

1
2
3
4

Pub. L. 116-136; 134 Stat. 281.
42 U.S.C. § 801(a)(2).
Id. at § 801(g)(5).
Id. at § 801(g)(l).

54
RECOMMENDATION

Based on the legal analysis provided by the Solicitor of
the Department of the Interior (included as Attachment
1), with which I concur, I recommend that you determine that Alaska Native regional and village corporations, as defined in or established pursuant to the Alaska
Native Claims Settlement Act, 5 are eligible to receive
payments from the Coronavirus Relief Fund in the amounts
to be determined pursuant to section 601(c)(7) of the Social Security Act.
X Approve

Disapprove

Let’s Discuss

ATTACHMENT

1. Letter from the Solicitor of the Department of
the Interior dated April 21, 2020.
2. Draft Website Press Release.

[FINAL DOCUMENT]

5

43 U.S.C. § 1601 et seq.

55
DEPARTMENT OF HEALTH AND HUMAN SERVICES
Health Services Administration
Alaska Area Guidelines for Tribal Clearances for Indian
Self-Determination Contracts

Notice is hereby given that the Indian Health Service
(IHS) has adopted administrative guidelines governing
tribal clearances of Indian Self-Determination Contracts in the Alaska Area. Publication as a notice was
decided upon because of the large number of tribes affected, the wide geographical dispersal of the tribes and
the key importance of the guidelines to the successful
implementation of the Indian Self-Determination Act in
Alaska. The guidelines have been developed in cooperation and consultation with the Alaska Tribes and tribal
organizations.
The following administrative guidelines will also be
incorporated into the administrative circular system of
the Alaska Area Native Health Service (AANHS).
Alaska Area Native Health Service Circular

Administrative Guidelines:
Pub. L. 93-638 Contracts

Tribal Clearances for

Contents:
1.
2.
3.
4.

Purpose
Statutory Authority
Definitions
Requirements
A.
B.
C.
D.

Tribal Clearances—Initial Contracts
Contents of the Resolution
Absence of Resolutions
Tribal Clearances—Renewal Contracts

56
E.
F.

Existing Resolution
Adoption of Resolutions

5.
6.

Supercession
Attachments

1.

Purpose

Public Law 93-638 (25 U.S.C. 450 et seq.) directs the
Secretary of Health and Human Services, upon the request of any Indian tribe, to enter into a contract or contracts with duly authorized tribal organization or any
Indian tribe to carry out any or all of his functions, authorities, and responsibilities.
The purpose of this circular is to set forth the policies
and procedures for the tribal clearances necessary for
Pub. L. 93-638 contracting in the Alaska Area. This circular is an interpretative supplement to and does not replace or change the existing regulations which govern
contracting under Pub. L. 93-638.
2.

Statutory Authority

A. The Alaska Native Claims Settlement Act
(ANCSA) (Public Law 92-203, 43 U.S.C. 1601-1628).
B. The Indian Self-Determination Act (Public Law
93-638, Section 103, 25 U.S.C. 450g).
C. The Code of Federal Regulations (CFR) Title
42, Sections 36.201-36.226.

57
3.

Definitions

A. “Indian tribe” means any Indian tribe, band, nation, or other organized group or community, including
any Alaska Native Village or regional or village corporation as defined in or established pursuant to the Alaska
Native Claims Settlement Act, which is recognized as eligible for the special programs and services provided by
the United States to Indians because of their status as
Indians.
B. “Tribal organization” means the recognized governing body of any Indian tribe: or any legally established organization of Indians which is controlled, sanctioned, or chartered by such governing body or which is
democratically elected by the adult members of the Indian community to be served by such organization and
which includes the maximum participation of Indians in
all phases of its activities. Under this policy, for example, the tribal organization which contracts with the Indian Health Service (IHS) may be the regional nonprofit corporation, or an independent organization of Indians established for the purpose of providing health
care services, or the village governing body.
C. “Initial contract” means a contract application
or proposal for any program or portion of a program authorized by the Secretary not presently being carried
out by the tribal organization.
D. “Renewal contract” means an application for
continuance of any program or portion of a program
which is presently a part of an existing Pub. L. 93-638
contract.

58
E. “Modification Amendment” means any change in
the cost, conditions, or scope of work for a program under contract.
F “Resolution” means a formal expression of opinion, will, or intent by the tribal governing body or by an
official having legal authority to speak for the tribal governing body.
4.

Requirements

A. Tribal Clearances—Initial Contracts
Any tribal organization is eligible to apply for contracts under the Indian Self-Determination Act (42 CFR
36.205(a)). However, before the IHS may enter into a
contract with a tribal organization, it must be requested
to do so by the tribe or tribes which will be benefited by
the contract (42 CFR 35.206(a)). The tribe’s request
shall be in the form of a resolution issued by the tribal
governing body (See Section F below). If the tribal organization is applying for a contract benefitting more
than one tribe, the approval of each tribal governing
body must be obtained before submitting the application
to AANHS (42 CFR 36.206(a)).
The tribal approval required before an IHS function
can be contracted will vary depending upon the benefits
provided by the contractor. Section 4(c) of the Indian
Self-Determination Act requires “That in any case
where a contract is let or a grant made to an organization to perform services benefitting more than one Indian tribe, the approval of each such Indian tribe shall
be a prerequisite to the letting or making of such contract or grant.”

59
Villages, as the smallest tribal units under the ANCSA
must approve contracts which will benefit their members. The actual benefit of proposed contracts for IHS
functions accrues to residents of individual villages as
recipients of the health services. The IHS has determined, therefore, that the statute requires village approval, either directly or by Delegation to a tribal organization.
In the case of a regional or sub-regional facility or
service, resolutions are required from all of the Alaska
Native villages in the local area that will use the facility
or receive the service. In the case of the Alaska Native
Medical Center (ANMC), which functions both as a local
service unit facility as well as a referral center for patients throughout the State, the scope of village approval will vary depending upon the functions to be contracted. Service Unit functions need receive approval
only from the villages in the Anchorage Service Unit.
However, the ANMC also provides certain specialized
health services and programs for all of the villages in the
Alaska Area. Before these programs or portions of
programs can be contracted, the contractor must show
evidence of support for contracting from each village
throughout the State. The support may be in the form
of village resolutions or resolutions from tribal organizations which have been delegated the authority to approve contracting for statewide services by the villages.
(See Section B for an explanation of delegation of authority for statewide functions.)
For the purposes of contracting under Pub. L. 93-638,
the Alaska Area will recognize as the village governing
body the following entities in order of precedence:

60
If there is an Indian Reorganization Act (IRA) Council, and it provides governmental functions for the village, it will be recognized.
If there is no IRA Council, or it does not provide governmental functions, then the traditional village council
will be recognized.
If there is no IRA Council and no traditional village
council, then the village profit corporation will be recognized.
If there is no IRA Council, no traditional village council, and no village profit corporation, then the regional
profit corporation will be recognized for that particular
village.
B. Contents of the Resolution
The resolution of the tribal governing body shall authorize the applicant tribal organization to apply for, negotiate and contract with the IHS (42 CFR 36.206(b) and
(c)), subject to the terms of the resolution and any applicable tribal laws, codes, regulations and customs. The
resolution must also include the following:
1. The name of the tribal organization to which the
resolution is given, such as a particular regional health
corporation;
2. The date the resolution was approved, and the
signature of the person authorized to certify the accuracy of the information in the resolution; and
3. A statement of the scope of contracting authority. It is the administrative interpretation of the AANHS
that the “specific terms, conditions, and limitation” of
the resolution allow either a broad or narrow statement
of contract scope, whichever the village desires.

61
Regulations at 42 CFR 36.206(a) allow a tribal organization to apply for and negotiate more than one contract
pursuant to an authorizing resolution. Therefore, villages are encouraged by AANHS to adopt broad, flexible language for this statement.
Narrow Scope Resolution
If a village issues a resolution that is narrow in scope,
the tribal organization must obtain additional resolutions specific to any other services it wishes to provide.
Any proposed increase in the responsibility of the tribal
organization is considered an “initial contract proposal”
under this option. The benefit of a narrow resolution is
that it vests continuing control over the tribal organization in the village by requiring affirmative action on the
part of the village council before any expansion in services is possible. The disadvantage of a narrow resolution is that it greatly increases the paperwork and overhead involved in contracting under Pub. L. 93-638 for
the tribal organization and discourages comprehensive
regional planning. The village council is called upon repeatedly to issue nearly identical formal resolutions of
support for the tribal organization, a difficult task where
the villagers may be dispersed for several months each
year. An example of a limited resolution is found at Attachment A.
Broad Scope Resolution
If a village provides a broad resolution of support for
a tribal organization’s health care activities the organization can contract with the IHS to provide comprehensive services to the village. The advantages to this approach are reduction of the considerable administrative

62
costs associated with multiple resolutions, increased flexibility and expedited health planning. The disadvantage of the broad resolution is that if a village is dissatisfied with the tribal organization’s performance, it is incumbent upon the village to express its dissatisfaction
by issuing a resolution on its own initiative withdrawing
its support of the organization or limiting the scope of
services the organization can provide.
It is incumbent upon each village to choose the type
of resolution that best meets its needs. This decision
will be based upon many factors, including the competency and expertise in health matters of both the village
and the tribal organization, and the ease with which the
village could issue numerous resolutions which may be
required throughout the year.
The village resolution in support of a tribal organization must also include:
The extent and procedure, if any, for village council
review of the contract, and any resulting amendments
thereto, prior to execution;
The village council official to whom AANHS should
send correspondence and copies of contract documents;
The proposed term of the contracts and date of commencement. Many tribes leave the term of the contract
open-ended in support of what are expected to be ongoing health services; and
Any other limitations the village may wish to impose
on authorities granted in the resolution.

63
Delegation of Authority
The resolution may include at the option of the village
a delegation of authority. The delegation of authority
allows the tribal organization to issue resolutions on behalf of the village in support of Pub. L. 93-638 contracts
for the functions listed in the resolution. These may include any health care services provided by the AANHS
both locally and on a statewide basis. For example, all
the villages in a region may authorize the regional health
corporation to act on their behalf in requesting or approving contracts for any health care program run on a
statewide basis such as a renal dialysis, burn care unit,
or other specialized medical care. In that case, the regional health corporation would have the authority to issue a resolution of support to a third tribal organization
or nonprofit Indian organization on behalf of member
villages. Villages are encouraged by AANHS to adopt
flexible delegation clauses for any health activities or
services not provided locally. However, the village may
allow the tribal organization to exercise only the authority that the village wishes to delegate. Sample delegation clauses, broad and narrow in scope, are found at,
Attachments B and C.
C. Absence of Resolutions
In cases of original contracts and renewals where all
of the village(s) to be served do not provide resolutions
of support, the matter will be resolved by the AANHS
Director. The Area Director, in conjunction with the
Service Unit Director and program chiefs, will determine if the program is administratively divisible and if
it is feasible to apportion the program or services to be
delivered. Possible ways to apportion the program or
services to be delivered include:

64
1. Contract with the tribal organization for service
to the tribes supporting that tribal organization for one
portion of the program, and
Contract directly with the tribe(s) that have objected
to having the tribal organization contracts on their behalf, or
2. The objecting tribe(s) may nominate by resolution a second tribal organization to provide the divisible
portion of the service; or
3. At his discretion, the Director may decide to contract with the tribal organization to provide service to
those villages which support the contractor and to offer
alternative arrangements for the services to the villages
which object.
If an administrative determination is made by the
AANHS that the program or service is not divisible and
that no other arrangements are administratively feasible, then the tribal organization will not be allowed to
contract to run the program. This is not a formal “declination” giving rise to the remedy of an administrative
hearing, but a threshold question of organizational eligibility based on the statutory requirement that each village benefitting from the contract must approve the contract.
D. Tribal Clearances—Renewal Contracts
For renewal contracts a tribal organization must send
a copy of the renewal application (or at a minimum an
abstract of the complete scope of work) to the tribal governing body (council) of each village provided services
under the existing contract, at least 75 calendar days before the existing contract expires (42 CFR 36.207(b)).

65
The copies should be sent by certified mail, return
receipt requested. The tribal organization should inform the tribe that, if the council has no objection to the
renewal, it need not take any action except to send the
organization a notice of receipt. When the tribal organization submits its contract renewal application to IHS,
verification of submission of the contract renewal application to the tribes served for their review will be required.
If the village council decides to object to the contract
renewal application, it must pass a formal resolution to
that effect and send it to the Area Director within 45
days after receiving the renewal contract. If no such
resolution is received, the absence of a resolution shall
constitute the village’s acquiescence in renewal of the
contract. If one or more of the tribal governing bodies
involved object to the renewal, the contract will not be
finalized until the tribal governing bodies have approved
the request or the matter is otherwise resolved (42 CFR
36.207(b)).
E. Existing Resolutions
Existing resolutions will be considered valid evidence
of support for existing Pub. L 93-638 contracts within
tribal organizations.
However, when these contracts expire tribal organizations must acquire resolutions that are consistent with
this circular. Tribal organizations contemplating expansion of services are encouraged by AANHS to obtain
new village resolutions which are broader in scope, so
that they will have the necessary resolutions prior to
submitting contract proposals. This will enhance the
tribal organization’s ability to add and delete programs

66
or services as necessary under the broader authority
delegated by member villages. An example of a village
council broad resolution may be found at Attachment D.
F. Adoption of Resolutions
Regulations require that the tribe’s request be in the
form of a resolution by the tribal governing body (142
CFR 36.206(a)). However, the resolution may be adopted in whatever manner the tribal governing body
chooses. It must be submitted to the AANHS as a written document, containing the date the resolution was approved and the signature of the person authorized to
certify the accuracy of the information contained in the
resolution. The document may be in the form of a letter. However, letters of support from individual tribal
officials must show that the official is authorized under
the bylaws of the tribe to act on its behalf. The letter
can either relate to the adoption of a resolution by the
tribal governing body or show that the individual has authority under tribal bylaws to represent tribal interests.
5.

Supercession

None.
6.

Attachments

A. Sample Resolution. (Narrow Scope)
——— Village Council Resolution No.
Whereas the ——— Tribal IRA Council is authorized
under Public Law 93-638 to request the Indian Health
Service to enter into contracts for programs benefitting
Alaska Natives in the ——— Village: (Other phrases
as deemed appropriate by the Village) NOW THEREFORE, be it resolved that:

67
The ——— Village Council hereby requests the
Indian Health Service to enter into a contract with
the ——— (tribal organization-regional health corporation) to conduct the following enumerated programs in
the ——— Village:
Inpatient (Hospital) Care, Community Health Aide, Community Health Representative

Term
The proposed term of the contract is ———, and the
proposed date for contract commencement is
.
The authority granted by this resolution shall remain in
effect until the expiration of the contract.
Powers
The Executive Director of the ——— tribal organization is authorized to initiate all action necessary to
conduct the programs including but not limited
to: submitting the application, negotiating and signing
the contract and any amendments thereto, on behalf
of ——— Village Council, and delegated responsibility
and authority for all of the day-to-day operation and direction of the programs.
B. Delegation of Authority: (Board)
The ——— Village delegates to the ——— Health Corporation the authority to issue resolutions of approval
pursuant to the Indian Self-Determination Act to health
care organizations or health care providers serving the
State of Alaska to provide any of the services authorized
by this resolution. This delegation means that the
——— Health Corporation may act on the behalf of the
——— Village to authorize regional health corporations

68
or other statewide organizations to provide services under Pub. L. 93-638 contract which benefit this village
and all other Alaska Native Villages.
The authority granted by this resolution is effective
immediately and remains in effect until withdrawn by
the ——— Village IRA Council through issuance of a
resolution of nonsupport.
Title
President
This resolution was adopted at a duly convened meeting of the ——— Village Council of the Community of
——— this ——— day of ——— 198 by a vote of
——— to ———.
Attest:

Secretary

C. Delegation of Authority (Narrow)
The authority of this resolution with respect to
provision of Inpatient (Hospital) Care is delegated to
the ——— tribal organization with powers of delegation
of this authority by the contractor. The contractor may
issue resolutions of support for the provision of the
above-mentioned services by ——— (regional or
statewide tribal organization) representing health concerns of the Native people in Alaska.
Title
President
The foregoing resolution was adopted at a duly convened meeting of the ——— (village council) of the Community of ——— this ——— day of ——— 198. By
vote of ——— to ———.

69
Attest:
Secretary
D. Sample Resolution: (Broad Scope)
The ——— Village IRA Council hereby requests that
the Indian Health Service enter into a contract with the
——— comprehensive health programs under contract
with the IHS for the benefit of Alaska Natives in the
——— Village. The authority granted by the resolution
gives the Regional Health Corporation the power to act
on behalf of the ——— Village in all matters necessary
for the provision of comprehensive health services to the
——— Village.
Powers
The Tribal organization is authorized to make arrangements to provide the following categories of services:
EXAMPLE I:

Core Clinical Services
Hospital (Inpatient) Care
Ambulatory Patient Care
Field Medical Services
Dental Care
Preventive Health Services
Mental Health Services
Alcoholism and Drug Abuse Services
Community Health Nursing
Health Education Programs

70
or
EXAMPLE II:

“Any and all health care currently being provided by the
Indian Health Service, and any additional health
care services that the organization can provide”.
Dated: May 8, 1981.
John H. Kelso,

Acting Administrator
[FR Doc 81-14804 Filed 5-15-81 8:45 am]
BILLING CODE 4118-84-M

